CERTIFICATE OF SERVICE

I, Andrew B. Greenlee, hereby certify that a copy of this Application for an Extension
of Time was sent via Federal Express to the United States Supreme Court, and 1 copy was
sent via Federal Express to the following parties listed below, this 6th day of January, 2020.

Office of the Attorney General,

1515 North Flagler Drive, Suite 900,
West Palm Beach, Florida 33401
Counsel for Respondents

Andrew B. Greenlee, Esq.*
Andrew B. Greenlee, P.A.

401 E. 1st Street, Unit 261
Sanford, Florida 32772
407-808-6411
andrew@andrewgreenleelaw.com

*Counsel of Record for Petitioner

All parties required to be served have been served.

  
 

br declare under penalty of perjury that the foregoing is true and correct.
is.executed on January 6, 2020.

Andrew B. Greenlee, Esq.*
Andrew B. Greenlee, P.A.

401 KE. 1st Street, Unit 261
Sanford, Florida 32772
407-808-6411
andrew@andrewgreenleelaw.com

Subscribed and sworn to before me by the said Affiant on the date below designated

 

Notary Public

[seal]

KARIMA AMELIA NURSE
Y COMMISSION # GG 179265
EXPIRES: January 25, 2022

  

   
   
 
